Department of Homeland Security
   Ofﬁce of Inspector General

               Recommended Practices for 

               Office of Inspector General 

                         Hotlines 





Final Report                                   October 2010
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Improving Hotline Performance ..........................................................................................3 


     Employing Well-Trained Intake Staff ...........................................................................3 


     Using Technology..........................................................................................................7 


     Performance Metrics and Trend Analysis......................................................................9 


     Ongoing Dialogue With OIG Management.................................................................10 


     Communicating With Complainants............................................................................10 


     Hotline Community Initiatives ....................................................................................15 


Other Considerations .........................................................................................................16 


     Special Issues Related to Whistleblowers....................................................................16 


     Disclosures Under the Privacy Act ..............................................................................20 


     Conclusion and Proposed Areas of Further Study .......................................................21 

Appendices
  Appendix A:   Purpose, Scope, and Methodology.......................................................23 

  Appendix B:   Hotline Technologies ...........................................................................24 

  Appendix C:   Hotline Technologies Evaluation Chart ...............................................31 

  Appendix D:   Major Contributors to This Report ......................................................34 


Abbreviations
  ACD           Automated Call Distributor

  ANI           Automatic Number Identification 

  CIGIE         Council of the Inspectors General on Integrity and Efficiency 

  CTI           Computer Telephony Integration 

  DTMF          Dual-Tone Multi-Frequency            

  ICR           Intelligent Call Routing 

  IG            Inspector General              

  IVR           Interactive Voice Response 

  OIG           Office of Inspector General 

  OSC           Office of Special Counsel 

  PII           Personally Identifiable Information 

  POGO          Project on Government Oversight 

  SORN          System of Records Notice 

  SSA           Social Security Administration

  SVC           Scheduled Voice Callback              

  VFO           Virtual Front Office 

  VoIP          Voice over Internet Protocol 

  VQ            Virtual Queue              

  WPA           Whistleblower Protection Act

Definitions

    Anonymous                   A complainant whose identity is unknown to the OIG.
    Complainant
    Confidential                A complainant who provides the OIG with personally
    Complainant                 identifying information, but requests that it not be disclosed,
                                with the understanding that the OIG will safeguard that
                                information to the best of its ability.
    OIG Hotline                 An entity that receives allegations from federal employees,
                                contractors, and the public that furthers an OIG’s mission (1) to
                                promote effectiveness, efficiency, and economy in its
                                organization’s programs and operations, and (2) to prevent and
                                detect fraud, waste, and abuse in such programs and operations.
    Whistleblower               An employee who lawfully discloses information that he or she
                                reasonably believes evidences (1) the violation of any law, rule,
                                or regulation; or (2) gross mismanagement, a gross waste of
                                funds, an abuse of authority, or a substantial and specific danger
                                to public health or safety committed by the employer.1
    Whistleblower               When a person with personnel authority takes, fails to take, or
    Reprisal/Retaliation        threatens to take or fail to take a personnel action with respect
                                to an employee because of a disclosure of information by the
                                employee that he or she reasonably believes evidences a
                                violation of a law, rule, or regulation; gross mismanagement; a
                                gross waste of funds; an abuse of authority; or a substantial and
                                specific danger to public health or safety. 2




1
    See 5 U.S.C. § 2301(b)(9); 5 U.S.C. § 2302 (b)(8).
2
    See 5 U.S.C. § 2301(b)(9); 5 U.S.C. § 2302 (b)(8).
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 This report offers guidance to Offices of Inspectors General
                 (OIGs) on ways to enhance the efficiency of their complaint
                 management process through improved Hotline operations.

                 In order to best manage OIG resources and to fulfill organizational
                 mission requirements, Hotline operators must be able to elicit
                 information from complainants quickly and efficiently and, to the
                 extent possible, assist in segregating legitimate complaints from
                 those that are frivolous, malicious, repetitive, or otherwise
                 unsuitable for further Inspector General action.

                 The topics discussed in this report will assist Hotline operators in
                 identifying, encouraging, and efficiently processing meritorious
                 complaints. Where possible, we have identified certain
                 recommended practices, with the caveat that the various Hotlines
                 and the Inspectors General they serve have such diverse programs,
                 missions, resources, and numbers of complaints received that no
                 one practice will benefit all Hotline operations. It is anticipated
                 that implementation of the proposed recommendations will permit
                 OIGs to increase their focus on those allegations with the most
                 potential for relevant impact.

                 The report has two sections. The first section identifies practices
                 and techniques for improving a Hotline’s performance, as defined
                 by the percentage of allegations that are substantiated through
                 investigation. The techniques discussed include training Hotline
                 intake staff, using specialized technology, identifying trends in the
                 intake process to better assist in call management, engaging in an
                 ongoing dialogue with OIG senior management, effectively
                 communicating with complainants, and proposed Hotline
                 community initiatives designed to share information across the
                 community. The second section discusses other matters that
                 Hotline operators should consider, such as issues relating to
                 whistleblower complaints and the Privacy Act of 1974 (Privacy
                 Act). Although this information does not directly relate to
                 improving Hotline performance, it provides useful information for
                 OIG Hotline operators.



                       Recommended Practices for OIG Hotlines 


                                       Page 1

Background
                          In recent years, there has been increased interest in the use of OIG
                          Hotlines as the principal mechanism for reporting and detecting
                          fraud, waste, and abuse. Entities both within and outside the IG
                          community have studied OIG Hotlines and their important impact
                          on the effectiveness of the IG community.

                          In March 2009, the Project on Government Oversight (POGO)
                          issued a report that discussed many issues relating to OIG
                          Hotlines, including issues related to the protection of
                          whistleblowers, OIG websites, and the use of contractors to
                          supplement federal Hotline staff.3

                          In July 2009, at the request of the Council of the Inspectors
                          General on Integrity and Efficiency (CIGIE), the Social Security
                          Administration (SSA) OIG surveyed the OIG community to gather
                          information on OIG Hotlines.4 Sixty-seven of the 68 CIGIE
                          member organizations responded to the survey, providing a wealth
                          of information on the diversity of OIG Hotlines with respect to
                          their size, internal procedures, and workload. For example, it was
                          determined that the majority of the OIGs receive fewer than 5,000
                          complaints each year, while a few OIGs receive more than 50,000
                          complaints each year. Accordingly, most OIGs have fewer than 10
                          employees working for their Hotlines, while others have more than
                          40 employees working for their Hotlines. As a result of the SSA
                          OIG survey findings, CIGIE determined that it would be beneficial
                          to conduct further studies on OIG Hotlines to identify practices
                          that might be universal in their benefit or provide a useful starting
                          point for individual OIGs looking to improve or otherwise refine
                          their Hotline operations.




3
  Project on Government Oversight, “Inspectors General: Accountability is a Balancing Act” (March 20, 

2009). 

4
  Social Security Administration, Office of Inspector General, “Inspector General Fraud Hotline Survey 

Report” (July 2009).


                                  Recommended Practices for OIG Hotlines 


                                                  Page 2

Improving Hotline Performance
           OIG Hotlines exist to elicit information from federal employees,
           contractors, and the general public that furthers an OIG’s mission (1) to
           promote effectiveness, efficiency, and economy in its organization’s
           programs and operations, and (2) to prevent and detect fraud, waste, and
           abuse in such programs and operations. Accordingly, OIG Hotlines play a
           critical role in the work of an OIG, because an OIG can only investigate,
           refer, or otherwise handle matters of which it is aware. Agency
           employees, contractors, and the public who make reports to an OIG via
           their Hotlines are an important resource because they can provide the OIG
           with notification of or insider information about potential problems.
           However, to encourage potential complainants to report fraud, waste, and
           abuse, an OIG must instill confidence that its Hotline handles complaints
           professionally and with discretion.

           As stated earlier, some OIG Hotlines receive tens of thousands of
           complaints a year. Many of these calls are frivolous, misdirected, or
           otherwise unsuitable for further action by the OIG, creating a strain on a
           Hotline’s often limited resources. As a result, Hotline managers must
           minimize factors that inhibit Hotline resources from focusing on the
           receipt of new information or the handling of legitimate complaints. By
           improving intake procedures, OIG Hotlines can focus their resources on
           allegations that are substantive in subject matter and in detail. Our review
           of the current practices of OIG Hotline operators identified the following
           methods for improving the Hotline intake process: (1) employing well-
           trained Hotline staff; (2) using technology effectively; (3) measuring
           performance and identifying trends in allegations; (4) incorporating
           feedback from OIG senior management into the case management
           process; and (5) communicating with complainants in order to both (i)
           manage the complainants’ expectations with respect to the Hotline’s
           ability to respond to their complaints personally or repeatedly and (ii)
           minimize the number of misdirected or otherwise unsuitable complaints
           the Hotline receives. In addition, the OIG Hotline community should
           participate in ongoing forums for sharing best practices and proven
           methods for improving performance.


Employing Well-Trained Intake Staff
           Well-trained complaint intake staff are a key element of an efficiently
           functioning OIG Hotline. In the OIG Hotline community, there has been
           considerable discussion as to whether and to what extent it is appropriate
           for OIG Hotlines to use contract employees to augment or replace federal


                         Recommended Practices for OIG Hotlines 


                                         Page 3

                 staff. Although the initial discussion revolved around whether operating
                 an OIG Hotline was an inherently governmental function, our review
                 revealed that the true issue of concern is whether OIG Hotline staff,
                 whether federal employee or contractor, know enough about the OIG’s
                 mission and the agency’s programs to elicit as much useful information as
                 possible and to route incoming complaints efficiently.5 Thus, the key
                 element of the discussion is whether it is reasonable to expect a contract
                 employee to have sufficient mission and program knowledge to triage
                 incoming complaints efficiently.

                 Given the differences in OIG Hotlines, particularly with respect to the
                 volume of complaints they receive and the number and complexity of the
                 programs for which their OIG provides oversight, it is impossible to make
                 a recommendation as to whether best practices preclude the use of contract
                 intake staff. There is no “one size fits all” solution or consensus to this
                 debate. However, all OIG Hotline intake staff, whether federal employee
                 or contract staff, should have a minimum level of skills and program
                 knowledge to enable the operator to properly document and route
                 allegations being reported.

                          Staffing OIG Hotlines: Federal Employees or Contractors

                          Some OIG Hotline practitioners believe that Hotlines should be
                          staffed solely with federal employees, asserting that federal
                          employees will have a better knowledge of the specific OIG’s and
                          the agency’s mission and the ability to perform a wider array of
                          functions than contract staff, who cannot make binding
                          determinations on behalf of the government. These Hotline
                          practitioners believe that federal employees are inherently more
                          efficient at processing incoming complaints. For example, OIG
                          Hotlines that use only federal employees often have a “cradle to
                          the grave” approach in which the same employee takes the
                          complaint from intake to resolution, greatly streamlining the intake
                          and referral process. In addition, at initial intake the employee can
                          immediately refer misdirected callers elsewhere, making it much
                          less likely that a significant amount of the Hotline’s resources will
                          be spent on complaints that are not suitable for further OIG action.
                          Further, federal employees, who are generally quite knowledgeable
                          about the OIG’s mission and the programs it oversees, can often
                          better elicit relevant information from complainants, allowing for
                          quicker recognition of how to route or prioritize the complaint.


5
 No OIG Hotline grants contract employees binding decision-making authority. Rather, the OIGs that use
contractors to supplement their Hotline staff limit the role of contractors to complaint intake and data
analysis, reserving decision-making authority for federal employees.

                                 Recommended Practices for OIG Hotlines 


                                                 Page 4

That said, however, an OIG Hotline may decide to supplement its
federal Hotline staff with contractors for several reasons.
Management has greater flexibility with regard to the hiring and
termination of contract staff, which would allow management to
hire staff to handle temporary increases in workload. In addition,
OIG management has greater room to negotiate pay, which,
depending on the arrangement, could be much more cost effective
than hiring full-time federal employees to perform low-level,
administrative tasks, such as answering phones and logging
complaints. Further, many Hotline contractors can provide skills
and services that are too expensive for most OIG Hotlines to retain
in-house, such as 24-hour operator staff, multilingual complaint
intake, and advanced technology for complaint intake, including
technology that ensures that complainants can remain completely
anonymous.

Ensuring That Hotline Intake Staff Are Well Trained

A Hotline is often the public’s first point of contact with an OIG.
Callers and contacts can be apprehensive and unsure of what issues
an OIG normally reviews. The terms criminal activity, fraud,
waste, and abuse, are broad, and the specifics of what these
categories encompass within a particular agency or OIG are
precisely defined within that particular entity. Thus, a well-trained
Hotline staff is vital, regardless of whether they are federal
employees or contractors. OIG Hotlines must triage these contacts
in a timely, effective, and confidential fashion to determine which
issues might have a serious impact on their agency and its clients.

It is important that operators be well trained, skilled in basic
interviewing techniques, knowledgeable about the mission and
programs of the organization they represent, and adept at handling
anonymous and confidential complaints. First and foremost,
Hotline intake staff must have the skills to elicit relevant, useful
information from complainants who might be angry, emotional, or
unaware of what constitutes appropriate grounds for an IG
investigation. Second, to determine the significance of allegations
of possible fraud, waste, abuse, or mismanagement, the intake staff
must understand the mission of their organization and how its
programs are adversely impacted by the alleged misconduct. For
example, many Hotlines spend much of their resources fielding
misdirected calls, acting as a de facto clearinghouse for complaints
dealing with requests for assistance from or information relating to
agency programs. These complaints are outside of the OIG’s
purview, and complainants should immediately be directed to the
correct program office. However, to refer these complainants

      Recommended Practices for OIG Hotlines 


                      Page 5

promptly to the correct agency or program office, the intake staff
must have a working knowledge of their organization’s mission, as
well as easy access to the contact information of these other
entities. Several OIG Hotlines provide intake staff with reference
materials that contain contact information for their agency’s
programs.

In addition, to ensure that intake staff handle cases consistently, at
least one OIG has created a telephone script. The script ensures
that the Hotline gives complainants a consistent message and that
the intake staff’s questions elicit enough information to refer the
matter to either a program office or the Hotline’s analytic staff,
who will decide what further action the Hotline should take. The
script is designed to ensure that the intake staff collects all relevant
information regardless of their knowledge about the agency’s
programs.

With respect to OIG Hotlines that rely on contractors to
supplement their intake staff, at least one OIG has had success in
training contract personnel to triage cases by combining guidance
on the agency’s programs with robust oversight by federal
personnel. The Hotline provided contract personnel with training
on the OIG’s mission and the agency’s programs and a reference
book that included the contact information for various agency
programs. The contractors were trained to refer matters to either
agency program officials or the OIG federal staff, depending on
the subject matter of the allegation. When they were uncertain
where a complaint should be referred, the default was to send it to
the OIG Hotline’s federal staff. Further, the federal staff reviewed
the allegations received and the referrals that the contractors made
to ensure that they were handled properly. In addition, federal
Hotline managers frequently visited the contractor’s offsite
locations to ensure that the contractors were properly trained and
handling calls appropriately.

Finally, as discussed in the “Special Issues Related to
Whistleblowers” section of this report, it is important that Hotline
intake staff understand the need to protect the confidentiality of
complainants as well as the laws that govern the protection of
whistleblowers. OIG Hotlines should have protocols in place to
ensure that Hotline intake staff, whether contractors or federal
employees, handle the identifying information that complainants
provide properly and refer matters relating to whistleblower
reprisal appropriately.



       Recommended Practices for OIG Hotlines 


                       Page 6

            No appropriately-routed complaint is without value. Priorities
            change as patterns emerge and agency missions sometimes evolve.
            Therefore, no properly-directed complaint should be trivialized or
            ignored.

            Recommended Practices
            We recommend that OIG Hotlines consider the following
            practices:

            Recommendation #1: OIGs should consider ensuring that their
            Hotline intake staff are adequately trained with respect to interview
            skills and program- and mission-specific information.

            Recommendation #2: OIGs should consider ensuring that Hotline
            intake staff handle complaints consistently, providing training
            sufficient to ensure that all complainants receive the same
            information and that all complaints are handled similarly, without
            regard to the skill and experience level of a particular staff
            member.


Using Technology
     Hotlines can reduce labor costs and provide better service to Hotline
     complainants by introducing certain technologies into the complaint intake
     process. Technology can be used to augment staff by performing some of
     the lower-level intake functions, such as logging complaints or redirecting
     misdirected complaints. Because hiring and training Hotline intake staff is
     expensive, adequately staffing a Hotline can be cost prohibitive—
     particularly if the Hotline receives a large volume of complaints. By
     supplementing staff with improved technology, the Hotline intake staff
     can focus on higher-level tasks, such as interviewing complainants and
     analyzing the incoming data, thereby increasing efficiency and
     productivity.

     For example, Hotlines receive many requests for assistance that are
     unrelated to the primary mission of OIGs and typically related to the core
     mission of the parent department or agency. Using Interactive Voice
     Response systems, Hotlines can automatically direct callers to
     informational messages that provide answers or assistance. In other cases,
     the call may be automatically transferred to a Hotline or helpdesk of the
     parent organization. More sophisticated systems use speech-enabled
     prompting to interpret the needs of the caller and route the call to the



                   Recommended Practices for OIG Hotlines 


                                   Page 7

correct destination without the need for the OIG Hotline intake staff to
engage the caller.

Many individuals choose the Internet in lieu of the telephone to report
their allegations. With proper engineering and implementation, Hotlines
may achieve greater efficiency by offering electronic web forms on which
complainants can file their allegations. This service may be more
desirable for some complainants because they can file their allegation
from any computer at any time. As discussed in the “Communicating
With Complainants” section of this report, OIG websites provide an
excellent forum for educating complainants and facilitating the allegation
report filing process. OIG websites can provide information on what
constitutes fraud, waste, or abuse and can explain how the process works
so that complainant expectations are properly managed.

Several existing OIG Hotline websites provide set formats and online
forms for complainants to fill out. The forms ensure that the Hotline
complainant provides a structured complaint that contains all the
information necessary for the OIG reader to make an informed decision
about the internal routing of the complaint.

Social networking Internet sites, including Facebook, MySpace, and
Twitter, are becoming more popular with a wide range of online
complainants. Hotlines may consider incorporating these entities into
their line of service channel offerings as the public’s desire to use these
sites increases. As with other websites and applications, access should be
engineered for simplicity and security. OIGs should take care not to
provide open access to sensitive or Privacy Act information.


These are just a few examples of technologies that should be considered.
A full description of additional items can be found in appendix B, and a
chart reflecting the pros and cons of each technology can be found in
appendix C. Not every technology is suitable for every Hotline. Hotline
managers and technicians should carefully evaluate the scope of their
operation, volume of contacts, origin of complaints, costs versus benefits,
and other factors before acquiring any of these tools.

       Recommended Practice
       We recommend that OIG Hotlines consider the following practice:

       Recommendation #3: OIGs should consider evaluating the
       technology available to assist in the complaint intake process in
       order to determine what, if any, technology might aid their


              Recommended Practices for OIG Hotlines 


                              Page 8

            Hotlines in processing incoming complaints faster, more
            efficiently, and more cost effectively.


Performance Metrics and Trend Analysis
     OIG Hotlines should collect and analyze incoming complaint data to assist
     in measuring individual and organizational performance. By analyzing
     data such as the number of complaints processed in an hour, the
     percentage of calls answered, the percentage of allegations either referred
     or closed on initial triage, management officials can assess how efficiently
     the Hotline is processing incoming complaints, whether its intake staff is
     sufficiently trained, and whether it has enough staff to process the
     complaints it receives. In addition, by analyzing trends in the allegations
     received, such as which issues are most prevalent or which types of
     allegations are most often substantiated, Hotline operators can help
     managers identify shifting trends and focus their resources on emerging
     problems most likely to yield a positive result and thereby get a better
     return on their OIG’s investment.

     Analyzing data trends can help to predict future problems by comparing
     information from the past to find indications of either inefficiency or
     success. These data can also be used for a wide range of trend analyses,
     such as measuring employee performance, identifying which types of
     issues are more prevalent, and assessing the quality of complaints.

     The difficulty in beginning trend analysis lies in determining which data to
     collect and compare. For example, a Hotline manager who wants to
     analyze changes in the amount of time for processing call-in complaints
     can request data for the number of calls received, number of calls
     answered, average time spent on each call, and average time spent on
     documentation after each call. The analysis will then look at the
     relationships between the numbers of calls received and the amount of
     time spent on each call over time, focusing on periods where the average
     time spent on each call was long or short. In addition, the Hotline
     manager could collect and analyze data dealing with various periods to
     find trends from month to month or year to year, which could help the
     manager to allocate resources more efficiently.




                   Recommended Practices for OIG Hotlines 


                                   Page 9

            Recommended Practice
            We recommend that OIG Hotlines consider the following practice:

            Recommendation #4: OIG Hotline managers should consider
            collecting and analyzing data relating to incoming complaints in
            order to (1) evaluate and improve the efficiency of their intake
            process and their Hotline operations and (2) identify trends in the
            nature of the allegations received, particularly as they relate to
            systemic weaknesses in an agency’s programs and operations.


Ongoing Dialogue With OIG Management
     An OIG Hotline cannot optimize its performance if it is not in an ongoing
     dialogue with OIG senior management. To the extent that Hotline
     operators are aware of IG initiatives and senior management is aware of
     trends in the allegations received, management officials can determine
     whether an OIG needs to reallocate resources. The Hotline can also learn
     what data are most useful to the OIG’s investigative staff and which
     practices need to be changed to better meet the OIG’s needs. In return,
     OIG management will have a better idea of what Hotline operators
     actually do and what additional resources the Hotline may need to provide
     better service. By working together, the Hotline operators and OIG senior
     management can ensure that the Hotline operators continue to improve the
     speed and efficiency with which they process complaints. In several
     OIGs, the Hotline managers meet regularly with OIG managers to discuss
     Hotline performance, trends in allegations, and how the OIG Hotline can
     best support OIG needs and priorities.

            Recommended Practice
            We recommend that OIG Hotlines consider the following practice:

            Recommendation #5: OIG Hotline managers should consider
            meeting regularly with appropriate senior OIG managers and staff
            to discuss Hotline performance, trends in incoming complaints,
            and prioritizing complaints in a manner that best furthers the OIG’s
            mission- and program-related initiatives.


Communicating With Complainants
     OIG Hotlines should provide for ease of communication with employees
     and the general public while instilling confidence that legitimate

                  Recommended Practices for OIG Hotlines 


                                 Page 10

complaints of suspected fraud, waste, or abuse will be acknowledged and
that confidentiality will be respected.

Proactively communicating certain information to complainants can be an
effective tool for managing complainants’ expectations and government
resources. OIG Hotline operators should make the complaint intake
process as transparent as possible, providing details as to what happens to
the complaints received and to what extent a complainant can expect to be
informed of the status of any resulting OIG investigation. However, as a
practical matter, some OIG Hotlines receive as many as 50,000 calls a
year and may not have the resources to respond directly or personally to
each complainant. Further, OIG Hotlines may wish to limit
communications to the complainant, because unchecked communications
could compromise legitimate privacy interests or provide subjects with
information that might impede an OIG investigation.

OIG Hotlines should (1) devise procedures to discourage calls from
frivolous, malicious, or repetitive complainants; (2) use their websites
both to provide complainants with useful information and to assist
complainants in providing useful, relevant information to the OIG; and (3)
aggressively advertise the OIG Hotline to agency employees and the
general public.

Handling Misdirected or Repetitive Hotline Complaints

Many OIG Hotlines spend much of their resources directing complaints to
other agency program officials, becoming a de facto clearinghouse for all
complaints related to the agency. In fact, most Hotline complaints do not
justify further action by the OIG. In many instances, the complaints are
frivolous or simply misdirected, and have nothing to do with combating
fraud, waste, and abuse. Potential complainants should be properly
educated on the role and authority of the OIG. Failure to do so
unnecessarily diverts OIG resources and frustrates the complainant. For
example, many people call to complain about minor personnel matters or
about the status of a federal assistance benefit. If these complainants are
educated and redirected, Hotline operators can provide them with valuable
assistance while minimizing the impact on the Hotline’s limited resources.
However, some complainants repeatedly contact the Hotline with the same
complaint, either to reiterate their prior complaint or to check on the status
of their complaint, thereby siphoning Hotline resources from the intake of
new complaints. Handling these repetitive complainants appropriately and
effectively is important, but it is advantageous to implement proactive
measures aimed at avoiding repetitive complainants.

The Inspector General Act of 1978 (IG Act), as amended, provides little
guidance on the specifics of operating an OIG Hotline and no direction on

              Recommended Practices for OIG Hotlines 


                             Page 11

handling complaints. Rather, OIGs have wide discretion in establishing
Hotline processes that they believe are best suited to their mission. The
processes established for handling complaints, including repetitive
complainants, should reflect an understanding that Hotline resources spent
on repetitive complainants may reduce resources available to receive new
allegations. At the same time, Hotline managers must ensure that
procedures for handling repetitive complainants do not “cut off” an
individual’s access to the OIG. A repetitive complainant could be a
source for new, important allegations, and the goal must be to provide
unrestricted reporting access to all potential legitimate sources of
information. Hotlines must proceed with the utmost caution when
considering blocking the phone number or email address of a repetitive
complainant, and such practices generally should be reserved for
complainants who are harassing, vulgar, or threaten violence, or for other
extraordinary circumstances.

One proactive approach to repetitive complainants is to provide all
complainants with a standard form message that (1) notifies or otherwise
confirms that the OIG received their complaint; (2) informs them that the
OIG will contact them (if contact information is available) only if it
requires additional information; and (3) asks them to refrain from
following up with the Hotline unless they have additional, pertinent
information.

Admittedly, the initial approach will not eliminate the repetitive
complainant issue. If an individual becomes a repetitive complainant, the
Hotline may take additional measures. A Hotline may send a letter to
certain repetitive complainants to reiterate the information stated in the
form message and provide a brief summary of the complainant’s history of
contacting the OIG without new or pertinent information. Depending on
the circumstances, the letter may answer the complainant’s underlying
question. For example, if the complainant is repeatedly calling for status
updates or to reiterate a previous complaint, the OIG may choose to
describe the status of the matter. OIGs should abide by the Privacy Act
and other confidentiality obligations when communicating with
complainants.

       Recommended Practice
       We recommend that OIG Hotlines consider the following practice:

       Recommendation #6: During its initial contact with a
       complainant, an OIG Hotline should consider managing the
       complainant’s expectations with respect to further contact with the



              Recommended Practices for OIG Hotlines 


                             Page 12

                                OIG, including providing information as to whether the
                                complainant should expect status updates from the OIG.


                    OIG Websites

                    OIG websites can enable the exchange of information with complainants
                    and educate complainants about the role of the OIG, the purpose of an
                    OIG Hotline, and complaint-processing procedures in general. The
                    website can safeguard OIG resources by providing potential complainants
                    with the tools they need to provide useful, relevant information. For
                    example, a website complaint form could provide prompts designed to
                    elicit useful information, such as identifying the program affected by the
                    allegations or specific evidence to support the allegations. The website
                    could also provide answers to frequently asked questions, such as the
                    procedures the OIG will use to process complaints and the extent to which
                    a complainant can expect a complaint to be kept confidential. The website
                    may offer links to information about whistleblower retaliation and other
                    information that will allow the complainant to make an informed decision.
                    Because members of the public often use OIG Hotlines as a clearinghouse
                    for any complaint against or involving the government, OIG websites may
                    also be able to redirect complaints to a more appropriate forum without
                    using a significant amount of the OIG’s resources.

                    A number of OIG websites do not contain a mechanism for reporting
                    fraud, waste, and abuse. These websites are in direct contravention of the
                    IG Act, which mandates that each IG “establish and maintain a direct link
                    on the homepage of the website of the Office of the Inspector General for
                    individuals to report fraud, waste, and abuse.”6 Because the public
                    increasingly relies on the Internet, not providing a direct website link to
                    report fraud, waste, and abuse creates an unnecessary barrier to potential
                    complainants and their valuable information.

                                Recommended Practices
                                We recommend that OIG Hotlines consider the following
                                practices:

                                Recommendation #7: OIGs should provide a mechanism for
                                reporting information relating to fraud, waste, and abuse via their
                                websites.

                                Recommendation #8: OIGs should consider providing
                                educational information on their websites, such as (1) information
6
    5 U.S.C. app. § 8L(b)(2).

                                      Recommended Practices for OIG Hotlines 


                                                     Page 13

       about the whistleblower’s protections against retaliation, including
       a link to the Office of Special Counsel; (2) an explanation of how
       the OIG responds to complaints; and (3) general information on the
       OIG’s mission and how the Hotline relates to that mission.

Education and Outreach

OIG Hotlines exist to elicit, collect, and document information about
fraud, waste, and abuse in their parent organization. To that end, many
OIGs educate both federal employees and contractors in their agency or
department about their Hotlines. Although most OIG Hotlines are
advertised on websites and on posters distributed in the workplace, a few
OIGs have conducted more comprehensive education and outreach
programs. For example, at one OIG, information about the Hotline is
relayed at all new employee orientations; in fraud awareness briefings held
at various agency facilities; during site visits to regional offices; during
OIG presentations at agency meetings, conferences, and training
programs; and in an automatic email notification that is sent to a
distribution list whenever a new OIG report is published. Other Hotlines
distribute information via promotional items given away at conventions,
briefings, and other forums; and in brochures included in mailings to
agency employees. Although most OIG Hotlines do not track whether
their outreach efforts have resulted in an increase in Hotline complaints, at
least one Hotline has identified a surge in complaints after each awareness
discussion and after the issuance of its new Hotline poster every year. In
addition, an OIG’s education and outreach efforts may have the additional
benefit of providing an opportunity to educate potential complainants on
the purpose and mission of OIG Hotlines and to thereby reduce the
number of misdirected complaints.

       Recommended Practice
       We recommend that OIG Hotlines consider the following practice:

       Recommendation #9: OIG Hotlines should consider engaging in
       education and outreach efforts to raise the profile of their Hotline
       and its purpose to the parent organization’s employees and
       contractors, thereby increasing the number of relevant and
       actionable complaints the Hotline receives.




              Recommended Practices for OIG Hotlines 


                             Page 14

Hotline Community Initiatives
     Given the important role that OIG Hotlines play in furthering the OIG
     community’s mission, it is imperative that Hotline operators have ongoing
     forums in which they can discuss best practices, develop standardized
     community-wide training materials, and receive updates on relevant
     developments in law and technology. Suggestions for such forums
     include the following:

        1.	 A CIGIE Hotline Committee or Subcommittee
            CIGIE could establish a formal subcommittee of Hotline directors
            charged with addressing changes in the laws affecting the Hotline
            community, creating community-wide standards and procedures,
            and calling attention to the role of Hotlines in the OIG community.

        2.	 An Annual Training Conference
            An annual training conference would enable Hotline staff to keep
            current on recent developments in the Hotline community, share
            best practices, and network with other Hotline operators. The
            conference could also offer standardized training in (1) basic
            interview skills, (2) best practices for handling complaint intake,
            and (3) the mission of OIGs and the role of OIG Hotlines in
            furthering that mission.

        3.	 OIG Hotline Operators’ Website and Electronic Mailing List
            An access-restricted website and electronic mailing list would
            allow OIG Hotline staff to share information and seek the advice
            of their counterparts at other OIG Hotlines. A mailing list would
            allow Hotline staff to receive immediate responses to their
            inquiries and to discuss emerging issues without waiting for a
            formal meeting or training conference. Further, the website would
            be a repository of documents, training materials, and answers to
            frequently asked questions that would be accessible to OIG Hotline
            staff 24 hours a day.

     A recent positive step in Hotline community-wide training and procedures
     is the revival of the Inspectors General Criminal Investigator Academy’s
     Hotline Operators Training Program. The program had been dormant, but
     was recently revived owing to increased interest in operator training.




                  Recommended Practices for OIG Hotlines 


                                 Page 15

                             Recommended Practice
                             We recommend that OIG Hotlines consider the following practice:

                             Recommendation #10: The OIG community should consider
                             creating an ongoing forum through which Hotline operators can
                             share information and best practices, such as a CIGIE
                             Subcommittee, training conference, Hotline community website, or
                             electronic mailing list.


       Other Considerations
           Special Issues Related to Whistleblowers
                    In the context of OIG Hotlines, a whistleblower can best be defined as an
                    employee who lawfully discloses information that he or she reasonably
                    believes evidences (1) the violation of any law, rule, or regulation or
                    (2) gross mismanagement, a gross waste of funds, an abuse of authority, or
                    a substantial and specific danger to public health or safety committed by
                    his or her employer.7 Whistleblowers can be a valuable source of
                    information to OIG Hotlines, and OIGs should encourage them to come
                    forward and report misconduct. The IG Act prohibits OIGs from
                    disclosing the identity of an agency employee without the consent of the
                    employee, unless the IG determines such disclosure is unavoidable during
                    the course of an investigation.8 Accordingly, OIG Hotlines should assist
                    whistleblowers who may fear retaliation and be cognizant of the need to
                    safeguard any information that might reveal the identity of a complainant.

                             Whistleblower Protections

                             Whistleblowers have special protections against retaliation under
                             the law, and it useful for a Hotline operator to know what those
                             protections are so that the operator can identify any retaliation-
                             related issues and refer both the issues and the whistleblower to the
                             relevant authority for further action. Because an OIG does not
                             have the power to order an agency or a contractor to take any
                             corrective action in response to a finding that retaliation has
                             occurred, Hotline operators should, where practicable, inform
                             whistleblowers of the methods by which they can seek corrective
                             actions on their own behalf.


7
    See 5 U.S.C. § 2301(b)(9); 5 U.S.C. § 2302 (b)(8); 5 U.S.C. app. § 7(a).
8
    See 5 U.S.C. app. § 7(b).

                                     Recommended Practices for OIG Hotlines 


                                                     Page 16

                           Federal and contractor employees have different rights or courses
                           of action relating to reprisal for whistleblowing. Federal
                           employees are primarily protected by the Whistleblower Protection
                           Act (WPA). The WPA provides statutory protections for federal
                           employees who disclose employer misconduct. Under the WPA,
                           federal employers are prohibited from taking or failing to take a
                           personnel action with respect to an employee or applicant because
                           of a disclosure of information by the employee or applicant that he
                           or she reasonably believes evidences a violation of a law, rule, or
                           regulation; gross mismanagement; gross waste of funds; an abuse
                           of authority; or a substantial and specific danger to public health or
                           safety.9

                           An OIG Hotline staff member who receives allegations or
                           evidence of retaliation should (1) refer the complainant to the
                           Office of Special Counsel (OSC) and (2) refer the allegations or
                           information related to the possible retaliation to a designated OIG
                           official. Generally, the OSC has authority to investigate and,
                           where appropriate, prosecute prohibited personnel practices,10
                           including whistleblower retaliation, committed against most
                           employees or applicants for employment in executive branch
                           agencies and the Government Printing Office. OSC also has
                           limited jurisdiction over allegations of whistleblower retaliation for
                           employees of the government corporations listed at 31 U.S.C. §
                           9101, the Federal Aviation Administration, and the Transportation
                           Security Administration. If OSC finds sufficient evidence to prove
                           a violation, OSC can seek corrective action, disciplinary action, or
                           both. In addition, OIGs have concurrent authority to investigate
                           allegations of whistleblower retaliation. While an OIG cannot
                           compel an agency to take any corrective action in response to a
                           finding of retaliation, the mere fact that the finding is made and
                           brought to the attention of the agency head can prompt the agency
                           to address any identified misconduct.

                           Certain subsets of federal employees receive additional
                           whistleblower protections. For example, the Intelligence
                           Community Whistleblower Protection Act of 1998 sets forth a
                           procedure for employees and contractors of specified federal
                           intelligence agencies to report complaints or information to
                           Congress about serious problems involving intelligence activities.
9
  5 U.S.C. § 2302(b)(8). The prohibition does not apply, however, if the disclosure is barred by law or is 

specifically required by Executive Order to be kept secret in the interest of national defense or the conduct 

of foreign affairs, except when such a disclosure is made to the Special Counsel, the Inspector General, or a 

comparable agency official. 

10
   The 12 prohibited personnel practices, including reprisal for whistleblowing, are defined at 5 U.S.C. § 

2302(b).


                                   Recommended Practices for OIG Hotlines 


                                                   Page 17

                          The Military Whistleblower Protection Act prohibits interference
                          with a military member’s right to make protected communications
                          to OIGs, members of Congress, certain Department of Defense
                          officials, and other persons or organizations designated by
                          regulation or administrative procedures.

                          Nonfederal employees are protected by other statutes, but the
                          protection is often limited to a certain type of disclosure. Many of
                          these statutes, such as the False Claims Act, the Sarbanes-Oxley
                          Act, and the American Recovery and Reinvestment Act (Recovery
                          Act),11 provide nonfederal employees with a private right of action
                          in federal court as well as significant financial compensation for
                          the retaliation. However, OIG Hotlines should not give
                          whistleblowers legal advice or encourage or dissuade a
                          complainant from taking any legal action.

                          As a result, an OIG Hotline should consider allowing intake staff
                          only to refer complainants to information about the OSC, the WPA,
                          and the Recovery Act, preferably by directing the complainant to
                          the OIG website or a prescribed list of preapproved sources of
                          information or points of contact.12 Such a practice would ensure
                          that Hotline intake staff do not inadvertently provide legal advice
                          to complainants.

                          Confidentiality and the Inspector General Act

                          Although the IG Act gives OIGs discretion with respect to whether
                          they can disclose the identity of a whistleblower, the identity of the
                          whistleblower should be kept confidential whenever possible
                          without contravening an OIG’s mission to combat fraud, waste,
                          abuse, and mismanagement. The IG Act also provides that—

                              The Inspector General shall not, after receipt of a complaint or
                              information from an employee, disclose the identity of the
                              employee without the consent of the employee, unless the
                              Inspector General determines such disclosure is unavoidable
                              during the course of the investigation.13

11
   Under section 1553 of the Recovery Act, IGs are responsible for investigating allegations of reprisal
against certain nonfederal employees who make protected disclosures related to Recovery Act funds.
12
   The Hotline should also consider referring complainants to the information that its agency provides
pursuant to the requirements of The Notification and Federal Employee Antidiscrimination and Retaliation
Act of 2002 (No FEAR Act), which requires agencies to notify employees of and provide training with
respect to their rights and remedies under antidiscrimination and anti-retaliation laws.
13
   5 U.S.C. app. § 7(b) (emphasis added). Because this provision of the IG Act applies only to
“employee[s] of the establishment,” it is not applicable to contractors, grantee employees, or other
nonemployee complainants.

                                 Recommended Practices for OIG Hotlines 


                                                 Page 18

                           Thus, the IG Act allows an OIG to disclose a complainant’s
                           identity without the complainant’s consent if the OIG determines
                           the disclosure to be necessary to the investigation. The IG Act also
                           requires some degree of protection for complainants who provide
                           information via the Internet.14 Specifically, the IG Act mandates
                           that online complainants “shall not be required to provide
                           personally-identifying information.”15 The IG Act does not,
                           however, prohibit an OIG from acquiring the information from a
                           complainant who chooses to provide the information or from
                           requesting it, if the information is necessary to investigate the
                           complainant’s allegation. By leaving the decision as to whether to
                           acquire or disclose the whistleblower’s identifying information
                           within the OIG’s discretion, the IG Act ensures that OIGs have the
                           flexibility to do what is necessary to combat fraud, waste, and
                           abuse. Investigations can be compromised when OIG Hotlines
                           cannot collect enough information from the whistleblower to verify
                           the claim and therefore justify allocating limited investigatory
                           resources to the matter.

                           In addition, keeping a complainant’s identity confidential can often
                           have unintended consequences, such as compromising the OIG’s
                           ability to investigate fraud, waste, and abuse. For example, in
                           some circumstances, either the size of the program or the nature of
                           the allegation is such that the mere act of investigating will make
                           the identity of the whistleblower readily apparent to the employer.
                           In those instances, the OIG must balance the need to safeguard the
                           identity of the whistleblower with the need to combat the
                           misconduct. As it balances these needs, the OIG may utilize one
                           or more of the following practices on a case-by-case basis: call the
                           whistleblower, explain why there is a concern that management
                           may become aware of his or her identity, provide the
                           whistleblower with OSC points of contact, and ask for permission
                           to release the whistleblower’s identity to OSC, if necessary.

                           To gain as much useful information as possible from a Hotline,
                           OIGs should strive to provide sources with the maximum amount
                           of confidentiality that is compatible with the needs of an
                           investigation. Although the IG Act sets forth a minimum standard
                           for confidentiality—prohibiting OIGs from disclosing the identity
                           of a complainant unless such disclosure becomes unavoidable in
                           the course of an investigation—OIGs should go beyond this

14
   However, these provisions have no applicability to designated federal entities, such as Amtrak, the 

Corporation for Public Broadcasting, and the Legal Services Corporation.

15
   5 U.S.C. app. § 8L(b)(2).


                                   Recommended Practices for OIG Hotlines 


                                                   Page 19

                           minimum standard and provide complainants with more
                           comprehensive assurances of confidentiality, if practicable. For
                           example, some OIG Hotlines use telephone and computer
                           encryption technologies that allow complainants to leave encrypted
                           anonymous messages.


         Disclosures Under the Privacy Act
                  The Privacy Act regulates the collection, maintenance, use, and
                  dissemination of personally identifiable information (PII) about
                  individuals that is maintained by federal agencies and departments. The
                  Privacy Act seeks to balance the government’s need for information
                  against the need to protect individuals against unwarranted invasions of
                  their privacy. While individual Hotline offices may collect and record a
                  variety of complaint information unique to the programs they oversee, at a
                  minimum, most Hotlines make a record of the following PII for each
                  complaint: (1) identifying complainant information such as name, home
                  address, email address, or other locating data and (2) similar identifying
                  information about individuals who may be involved in or have knowledge
                  of wrongdoing. OIG Hotline staff should be aware of their OIG’s
                  procedures for handling PII and when an issue should be referred to the
                  designated official in the OIG for a determination under the Privacy Act.

                  Under the Privacy Act, “no agency shall disclose any record which is
                  contained in a system of records by any means of communication to any
                  person, or to another agency, except pursuant to a written request, by, or
                  with the prior written consent of, the individual to whom the record
                  pertains [subject to 12 exceptions].”16 An OIG Hotline’s complaint files,
                  which often consist of complaint information, including PII, indexed by a
                  person’s name, telephone number, address, file number, or other identifier,
                  constitutes a system of records, which is defined as “a group of any
                  records under the control of any agency from which information is
                  retrieved by the name. . .or by some other identifying number, symbol, or
                  identifying particular assigned to the individual.”17 An agency must
                  publish a System of Records Notice (SORN) in the Federal Register if it
                  has created and is maintaining Hotline files that contain information
                  protected under the Privacy Act.



16
  5 U.S.C. § 552a(b).
17
  A record is defined as any item, collection, or grouping of information about an individual that is
maintained by an agency, including, but not limited to, name; identifying number or identifier (e.g., Social
Security number, employee number); address; financial data; or other identifying particular assigned to the
individual.

                                   Recommended Practices for OIG Hotlines 


                                                   Page 20

           Generally, the Privacy Act permits disclosure of most PII to the individual
           who is the subject of a record(s) held in a system of records, and generally
           prohibits disclosure of PII to individuals who are not the subject(s) of the
           record. Accordingly, most Hotlines do not provide the results of their
           OIG’s investigations when they are closed, and fewer still respond to
           requests for status updates. Many Hotline offices will instead provide
           requesters with information on how to request information regarding the
           investigation under the Freedom of Information Act.


Conclusion and Proposed Areas for Further Study
    OIG Hotlines provide an important service for the IG community, acting as a
    repository for allegations of fraud, waste, and abuse. A well-run OIG Hotline that
    is adept at (1) eliciting information from complainants and (2) distinguishing
    credible allegations of misconduct from frivolous and misdirected complaints can
    play an integral role in furthering the mission of an OIG. Unfortunately, OIG
    Hotlines are not always well integrated into the organizations they serve, and the
    OIG community does not have sufficient forums for OIG Hotline operators to
    share best practices and engage in professional development. More can be done
    to improve OIG Hotline performance and increase their ability to elicit credible,
    useful information. We have identified the following areas that may be worthy of
    future study:

       1. 	 The feasibility of a government-wide system for sharing information and
            pooling data relating to Hotline complaints. For example, the Recovery
            Accountability and Transparency Board has created a mechanism for
            sharing Hotline complaint information between federal agencies that has
            allowed the government to discover trends in misconduct and relationships
            between various malefactors and their schemes. In addition, sharing
            information allows the government to pool its resources across agencies,
            which allows it to combat fraud, waste, and abuse more efficiently.

           Specifically, the board established the Recovery Board Fraud Hotline for
           the public to report potential cases of fraud, waste, and abuse related to
           Recovery Act funds. The board analyzes the information obtained
           through the Hotline and refers potential cases of fraud and waste to the
           relevant IG or agency for further review. This Hotline maintains a
           database of all reported complaints in order to identify issues or entities
           that cross organizational boundaries. In addition, the board has created a
           technologically advanced system to screen, analyze, and manage Hotline
           complaints. Among other things, the board’s system uses a proprietary
           analysis tool to identify obscure relationships between entities to provide
           information for potential investigations and audits and to help focus
           oversight resources where they are needed most.


                         Recommended Practices for OIG Hotlines 


                                        Page 21

2. 	 A review of how an individual OIG could use the information in the
     Hotline repository in ways that go beyond the pursuit of individual
     allegations. An examination of the entire universe of allegations received
     could provide a snapshot of the ethical temperature of the department or
     agency and invite trend analysis that can identify growing problems and
     highlight areas that require attention. The rapid development of
     technology has allowed for the detection of trends among any combination
     of fields in the repository such as offense, administrative or criminal,
     problems that develop more significantly at a certain geographic location,
     or among a certain job series or pay grade. Such analysis could assist
     leadership in the allocation of resources and offer the potential to
     remediate problems at an early stage. OIGs could strengthen the results
     by carefully analyzing the relationship between types of information that
     would provide desired reporting results and the information that is derived
     from individual reports and reports requested from bureaus and offices.

3. 	 A review of how smaller OIGs should structure their Hotlines so that they
     can maximize the use of federal employee Hotline staff, despite possible
     resource limitations. For example, the review might explore whether it
     would be effective for smaller OIGs to either have joint Hotlines with
     other smaller OIGs or to contract with larger OIGs for assistance in
     running their Hotlines.

4. 	 A review of the policies and procedures relating to whistleblower-related
     issues within the OIG community. This review would identify and
     highlight best practices that have been proven effective for individual
     OIGs.




                  Recommended Practices for OIG Hotlines 


                                 Page 22

Appendix A
Purpose, Scope, and Methodology


                    We undertook this review at the request of CIGIE’s Investigations
                    Committee. The purpose of this review was to provide guidance to OIG
                    Hotline operators. Specifically, our goal was to review the practices of
                    several OIG Hotlines in order to identify best practices for improving
                    Hotline performance, defined as increasing the percentage of allegations
                    that are substantiated by subsequent OIG investigations. In addition, we
                    identified certain issues that affect the entire OIG Hotline community as
                    well as areas that might merit further review. Although we recommend
                    certain practices and procedures throughout the report, we do so with the
                    caveat that OIG Hotlines are as diverse as the OIGs they serve,
                    representing organizations of various sizes, program-related missions, and
                    complexities. In addition, each OIG Hotline has different resources,
                    complaint volumes, and staffing concerns. As a result, we cannot
                    recommend any practice as a one-size-fits-all solution to an OIG Hotline’s
                    issues and concerns. Rather, we offer recommended practices that have
                    proved successful for other OIG Hotlines or that a consensus of
                    experienced Hotline operators have recognized as a worthy of sharing with
                    the larger OIG Hotline community. These recommendations are narrowly
                    tailored to address OIG Hotline operations generally and the OIG intake
                    process specifically.

                    This report is not intended to provide guidance with respect to an OIG’s
                    decision as to what matters merit the allocation of its investigative
                    resources, nor is it intended to provide legal advice to OIG Hotline
                    practitioners. In addition, we did not undertake to provide a
                    comprehensive analysis of the rights and protections afforded to
                    whistleblowers. Further, this report is not intended to be a response to any
                    recent reports or surveys examining OIG Hotlines.

                    Our Working Group was staffed with attorneys and Hotline operators from
                    OIGs of various sizes and included representatives of presidentially
                    appointed and designated federal entity OIGs. We also used data
                    generated by a previous CIGIE Investigations Committee study of OIG
                    Hotlines conducted by the Social Security Administration. In addition, we
                    interviewed various Hotline operators and other concerned parties.




                              Recommended Practices for OIG Hotlines 


                                             Page 23

Appendix B
Hotline Technologies

Telephone Operations

Automatic Call Distributor (ACD)

ACD systems are composed of hardware, software, and telecommunications that route
incoming calls to workstations/terminals. ACDs are typical in a Hotline environment
where multiple representatives receive inbound calls. These systems can be provided by
the network carrier (phone company) or acquired as complainant premise-based
equipment. ACDs use predefined routing plans to send calls to the next available
representative. ACDs can also use specialized routing plans or “gating” features to
segment call routing by specialization. Groups of Hotline representatives with certain
expertise may be designated to handle specific types of calls, and the ACD will
accommodate these requirements. ACDs can provide management information to assist
Hotline managers in assessing organizational and individual performance.

Interactive Voice Response (IVR)

IVR is a technology used by many Hotlines to eliminate the need for human intervention
for every incoming call. IVR systems use a combination of directed or natural speech
and/or dual-tone multi-frequency (DTMF) telephone push buttons to facilitate interaction
between the caller and a series of recorded prompts and messages. Businesses use
prerecorded scripts with menus of options that lead callers through the IVR application.
Many transactions can be completed automatically without the need for the caller to
speak with a Hotline representative. This can save substantial time and money for the
Hotline but can also cause frustration for the caller if the application is not properly
engineered.

IVR applications are used to segment callers and direct them expeditiously to the
appropriate services. Some calls may be satisfied by offering a prerecorded message
giving the information the caller is seeking. Other calls may interact with an
organization’s database to obtain information such as the status of a pending request.
IVR applications can also perform voice-capture operations to facilitate data collection
for electronic forms processing. Finally, IVR applications can route calls to a Hotline
representative when the caller must speak to a representative.

IVR functionality can be obtained through a telecommunication provider’s network or
acquired as part of the Hotline’s on-premise infrastructure.




                             Recommended Practices for OIG Hotlines 


                                            Page 24

Appendix B
Hotline Technologies


Directed and Natural Speech

IVR applications function using DTMF inputs or the spoken word. When IVR prompts a
caller to “say or press,” both DTMF and speech are supported because the caller can
press the digit on the telephone instrument or speak the digit to register a response.

Directed speech applications limit the choices a caller can give in response to a query,
e.g., “Say 1 for English.” However, more advanced applications are using natural speech
or technology that is sometimes referred to as “speak freely.” Rather than being directed
to a limited number of acceptable responses, the caller may say anything, and the
application uses predefined speech dictionaries to interpret, translate, and act on the
response. For example, in a natural speech application, the caller may hear an
introductory message that says, “Thank you for calling XYZ Company today. In a few
words, please explain the reason for your call.” Based on the caller’s response, additional
questions may be offered to pinpoint the exact business transaction being requested. If
intelligent natural speech applications cannot determine the reason for the call, the call is
routed to a Hotline representative for handling.

Speech-to-Text Translation

This technology enables callers to interact with corporate databases and to leave
information for later transcription. Using a telephone, callers can speak alpha and
numeric information, which is interpreted and translated into machine-readable text. For
example, a caller may want to confirm an upcoming flight. A natural speech application
might prompt the caller to explain the reason for the call, and upon hearing “I want to
confirm my flight reservation” would then prompt for the exact flight number and date of
travel. This spoken information would be translated and confirmed with the caller. Once
the data are verified, the speech that has been translated to text is then used to query the
airline’s database to determine flight status. That information is then spoken back to the
caller through prerecorded messages or phrases.

An additional application for this technology allows a caller to complete a form over the
phone or receive something via the U.S. Postal Service. A voice capture application
using speech-to-text translation will prompt the caller to speak information, prompt for
verification, and enter the verified data into the form. In cases where a mailer is
requested, the spoken information that was captured over the phone is automatically
transcribed to generate the outgoing letter. No human intervention is necessary.

Computer Telephony Integration (CTI) Screen Pop/Screen Splash

CTI integrates telephone communications with computer databases. Similar to the
technologies outlined above, CTI applications translate the caller’s spoken words into
text that is used to access internal corporate databases. CTI applications are used in

                              Recommended Practices for OIG Hotlines 


                                             Page 25

Appendix B
Hotline Technologies

complainant relationship management to segment callers for specialized treatment. This
technology uses the Automatic Number Identification (ANI) of the caller (phone number
from which the call was generated) coming from the phone company as the first
identifying item of information about the call. ANI data are matched against internal
corporate databases to locate a repeat caller. Predefined call handling rules are applied to
call routing. For example, in retail industries, callers may be routed to the top of the
queue if their annual purchase volume exceeds a certain threshold. In other cases, repeat
or difficult callers may be routed to a specialized Hotline group that deals with more
complex issues. This type of functionality is also referred to as caller recognition routing.

Financial institutions may use their IVR to prompt the caller for an account number. This
information is used to locate the caller’s records before the call is delivered to a
representative. Once the record is retrieved from the database, that information is
displayed on the Hotline representative’s computer screen as the telephone call is
delivered. Searching for and displaying complainant data in synchronization with call
delivery is called Screen Pop or Screen Splash. This time-saving technology enables the
representative to quickly authenticate the caller and complete the business transaction.

Queue Management

As Hotlines become more popular and call volumes increase, the inability to handle every
call quickly results in a queue. Depending on the available human resources to answer
calls and the call volume forecasts, Hotline managers will want to adjust the queue
depth—the number of calls that can be placed on hold—according to expected
performance. Once the threshold is met and the queue is full, every subsequent call
deflects to a busy signal or informational message. Advanced queuing technologies
enable phone systems to evaluate the current average length of calls, incoming volume
per time interval, and available representatives to estimate the average wait time for the
caller. Intelligent queuing announces this information to callers, giving them the option
to hold or terminate their call.

More advanced techniques for queue management now include scheduled voice callback
(SVC) and virtual queue (VQ). SVC allows callers to specify a day and time when they
wish to be called back. VQ allows callers to hold a place in queue, but then disconnect
and receive a call when their queue position arrives, rather than wait on hold on the line.
Outbound predictive dialers use the incoming or entered callback numbers to
automatically place the outbound calls.

Intelligent Call Routing (ICR)

ICR solutions are advantageous in cases where Hotlines are geographically dispersed and
call volumes are large. ICR uses a combination of network technology and software to
manage the entire distributed Hotline enterprise. ICR continuously analyzes traffic
volume coming into the network and available answering resources among all linked

                              Recommended Practices for OIG Hotlines 


                                             Page 26

Appendix B
Hotline Technologies

Hotlines. ICR automatically detects when a seat in the enterprise is no longer available at
a single location and makes routing adjustments accordingly. These intelligence-based
routing platforms minimize call wait time and maximize answer rates and Hotline
productivity. These systems can be provided by the telecommunications provider or
acquired as complainant premise-based solutions.

Virtual Front Office (VFO)

A VFO provides one central point of contact for all incoming calls to an agency. Callers
dialing any field office will be seamlessly routed to one central intake unit, usually
headquarters. At that point, the call will be routed to the appropriate destination (Hotline,
requested party, externally, etc.). Calls that are routed to the Hotline can be triaged, and
any allegations that need immediate action can be forwarded to duty agents in the local
area from which the call originated.

Voice over Internet Protocol (VoIP)

VoIP technology enables users to make and receive telephone calls over a broadband
Internet connection instead of over a traditional phone line. This system is a single
network that combines voice and data transmissions. Voice traffic is converted into data
packets and transmitted over the public Internet or over a private network. A basic
system requires broadband Internet connection and a VoIP-enabled phone. This
technology enables employees to maintain access to office networks whether at work or
at home. Staff working remotely can answer calls and access networks. This tool
simplifies and streamlines work processes.

Still a relatively new technology for many businesses and government agencies, VoIP
promises to reduce overall telecommunications costs because telephone calls travel over
the data network rather than the phone network. This technology also facilitates further
integration of phone and computer applications, especially on the Internet. For example,
Internet users may find it easier to use a “Click to Talk” icon from a web page to speak
with a representative about the transaction they are attempting to complete online.

Facsimile

Fax technology is still a viable service channel for Hotlines. Complainants may want to
write a letter and expedite its delivery by sending the correspondence using a fax
transmission. In some cases, they may follow up with the original paper copy.




                              Recommended Practices for OIG Hotlines 


                                             Page 27

Appendix B
Hotline Technologies

Internet Operations

Internet

Complainants usually want multiple options to reach a business or government entity.
Hotlines can no longer offer only a single channel for complainants to reach their
enterprise, but must be ready to handle all channels of communication.

Complainants may call, write, fax, or send an electronic web form to complete their
business transaction, or may opt for social networking sites as a means of conducting
business. Telephone call centers have evolved into contact centers because of
technological advances and the public’s desire for service alternatives.

Complainants are increasingly using the Internet to transact business. However, web
applications must be designed for maximum efficiency so that complainants do not
become frustrated or feel that their time is being wasted. Electronic forms should be
clear, concise, and understandable. Web developers should follow established guidelines
for form development, presentation, and complainant use. These applications must
operate in a secure environment where users have full confidence that their personally
identifiable information will not be compromised. In some cases, the application will use
a personal identification number and password to register the user.

Hotlines must also carefully plan for the introduction of additional business channels.
While Internet transactions relieve traditional call center representatives of inbound
telephone calls, a separate new workload is created if the Internet transaction requires
human intervention. Some businesses use a completely separate group of employees to
handle Internet/email traffic versus telephone traffic, while others take the “blended
agent” approach, where the same employees handle all channels of business transactions.
Telephone operations may be limited to certain hours in the day, whereas Internet
websites are available 24/7. Transactions will continue to arrive at the organization
regardless of whether it is open for business at the time complainants send their requests.

Social Networking

Social networking Internet sites, including Facebook, MySpace, Twitter, and blogs, are
becoming more popular with a wide range of online complainants. Hotlines may need to
incorporate these entities into their line of service channel offerings as the desire to use
these sites increases. As with other websites and applications, access should be
engineered for simplicity and security. In particular, OIGs should take care not to
provide open access to sensitive or Privacy Act information.




                              Recommended Practices for OIG Hotlines 


                                             Page 28

Appendix B
Hotline Technologies

Hardware

Scanning Operations

Many businesses are moving away from paper to optical imaging. Scanning can reduce
time spent handling paper and the costs associated with printing and storing
documentation. Scanners are designed to meet the needs of almost any workload or
operation. High-speed scanners are best for organizations with large volumes of paper,
while lower-speed units may be satisfactory for smaller operations.

Scanners can read and create images, and some can read, interpret, and translate
documents. For example, optical character recognition devices can read, interpret, and
translate mark-sense codes or bar codes. Intelligent character recognition devices can
read the same data but can also read and interpret handwritten characters. Scanning
operations must be designed with indexes so that the optical image can be easily
retrieved. Legal requirements may dictate that some original documents be retained to
meet evidentiary requirements in litigation.

Wireless Technology

Wireless devices are becoming more prevalent in today’s technological architectures.
Physical plant wiring can be expensive and difficult depending on the facility in which it
is being installed. Wireless networks that include routers, workstations, and printers are
simplifying the installation of computer equipment. Wireless headsets allow employees
to be mobile in a call center. Rather than being tethered to the phone instrument, wireless
headsets enable employees to walk about the center, perhaps interacting with a senior
technician or manager, while still engaging the caller.

Hotlines should evaluate wireless technology for efficiency of operations. However,
system designers must ensure that wireless local area networks and other devices are
secure, as this has been problematic for wireless computing in the past.

Software Applications

Decision Support Systems

Hotlines may use software applications known as decision support systems to guide
representatives through a telephone interview. These desktop applications display on-
screen decision trees to assist the staff in eliciting the maximum amount of useful
information based on caller responses. Online policy and procedures, frequently asked
questions, and other commonly requested information can be made accessible as online
desk aides for swift retrieval by the Hotline representative. Organizations can purchase
commercially available off-the-shelf products or develop their own in-house applications.


                             Recommended Practices for OIG Hotlines 


                                            Page 29

Appendix B
Hotline Technologies

Case Management Systems

Hotlines frequently serve as data collection points for government and business
operations. Systems to collect, store, retrieve, and report on complainant contacts are
essential. Complainant relations management applications store useful information about
complainants to assist in future interactions. Case management systems store data about
an inquiry and can be used to refer that transaction to the appropriate authority for further
action. Case management systems can be developed internally or acquired commercially.

Typically, case management includes a back-end database that stores predefined data
elements essential for the operation of the business. The user interface or front end can
be designed using a variety of software tools. The system must be capable of providing
management information reports to inform on a variety of metrics as defined in the
business requirements. Report-writing tools such as Crystal and Hyperion are examples
of proprietary products that can be used for this purpose.

Workforce Management Software

Medium- to large-scale Hotlines should consider workforce management software to
assist in managing the enterprise. These applications allow Hotline personnel to enter
parameters relating to expected call volumes, anticipated staffing, and other workloads
requiring human resources. Hotline personnel will need a good understanding of their
workload characteristics, including historical call volumes, average call length, average
after-call work time, not-ready time, and other statistics. These parameters enable the
software to calculate and project service levels and performance. At pre-specified time
intervals throughout the day, workforce management software will suggest staffing levels
to meet the expected call demand. These applications consider lunch periods, priority
workloads, specialized call gating, and emergency conditions.

Language Translation

As Hotlines strive to meet the demands of a more diverse population, language
translation services may be considered. A variety of businesses offer language
translation and this service may be advisable for organizations with a large volume of
non-English-speaking complainants.




                              Recommended Practices for OIG Hotlines 


                                             Page 30

Appendix C
Hotline Technologies Evaluation Chart




                          Recommended Practices for OIG Hotlines 


                                         Page 31

Appendix C
Hotline Technologies Evaluation Chart




                          Recommended Practices for OIG Hotlines 


                                         Page 32

Appendix C
Hotline Technologies Evaluation Chart




                          Recommended Practices for OIG Hotlines 


                                         Page 33

Appendix D
Major Contributors to This Report

                    The CIGIE Hotline Working Group

                    The CIGIE Hotline Working Group consisted of representatives of
                    the following Offices of the Inspectors General:

                    Appalachian Regional Commission

                    Commodity Futures Trading Commission

                    Department of Commerce

                    Department of Defense

                    Department of Homeland Security

                    Department of Housing and Urban Development

                    Department of Labor

                    Department of Veterans Affairs

                    Federal Maritime Commission

                    Legal Services Corporation

                    Small Business Administration

                    Social Security Administration

                    Tennessee Valley Authority

                    United States Postal Service




                          Recommended Practices for OIG Hotlines 


                                         Page 34

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
